HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Probram in the State of North Carolina,"(A-04-03-06009)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of North Carolina" (A-04-03-06009)
May 22, 2003
Complete
Text of Report is available in PDF format (13.6 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report shows that the North Carolina Division of Medical Assistance appeared to have adequate accounting
procedures and internal controls to actively pursue outstanding receivables from drug manufacturers under the Medicaid
drug rebate program.  Therefore, this report contains no recommendations for the state to address.